No.
In the
SUPREME COURT of the UNITED STATES
ROGER WALDNER and GLENN AMBORT,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Eighth Circuit
CERTIFICATE OF COMPLIANCE

Roger Dean Waldner
Petitioner, pro se
P.O. Box 485
Redfield, SD 57469
605-472-3135

Glenn Ambort
Petitioner, pro se
P.O. Box 599
Redfield, SD 57469
605-377-8656

As required by Supreme Court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains 1659 words, excluding the parts
of the petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 26, 2021

22
Glenn Ambort

